.• .
*•

„

4
if *

• **

'4

441
as~5nnr

IN THE
SUPREME.COURT OF THE UNITED STATES

Brandon Mark Bjerknes

AUG 10 202}

j.7-crr0234, 0:19-cv-00350-WMW
20-2021
— PETITIONER

(Your Name)
vs.
United States of America •

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Eighth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
Brandon Mark Bjerknes
(Your Name)
P.0. Box 1000
(Address)
Milan, Ml. 48160
(City, State, Zip Code)
N/A
(Phone Number)

RECEIVED
AUG 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

v ..

-< 1

•

QUESTION'S PRESENTED
(1) Under Article I,-section 3, Clause'1 of the United States.Constitution, does
the Senate,..through its constitutional construction, link the State Governments
directly to the Law making process in the Federal Government?
(2) If the law making process in Congress is the result of State Governmental
representation, does the Executive Branch; of the Federal Government-violate the
5th-Amendment to the United States Constitution, when it successively charges a
defendant for the same conduct, already charged in the Sovereignty of a..State)?
(3) Has Judicial Minimalism and:.the resulting Decision Minimalism by the court led
to.an improper application of the Constitution as a Whole in the Judicial Branch
of the Federal Government?

.

.

-

(4) Does the 6th Amendment to the-United States Constitution require that "assistance
of Counsel" be a standard that finds its fatoMim. in

Articles I-VTI and the

subsequent Amendments to the Constitution; or should Attorneys be allowed to set
their own "objective standard of reasonable competence," even if this,:.in essence j
. bars any criminal defendant from arguing that consel was ineffective for failing
to note the":proper.application of the United States Constitution in a manner not
noted as "precedent" when counsel was representing the defendant!?
(5) Having answered the above questions, is this1:.Courts decision in "Gamble"

■

.consistent .with the constitutional protection against double jeopardy afforded in
the 5th Amendment to the United States Constitution?

>

•.
«
> '•*

V

V
♦

6

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
State of Minnesota Case # 04-CR-17-846 , Decided 2-8-2018
State of Minnesota Case # 04-CR-17-1392 , Decided 2-8-2018

.

4

•*..

>•••« •

-< «

*

...

•*

.•*

TABLE-OF CONTENTS
. Opinions Below

(a)

Jurisdiction

(b)

Constitutional and Statutory Privisions Involved

(c), (d), (e)

Statement of the Case...........................................

(f)

Reasons for Granting the Writ

(l)-(2l)

Conclusion..............................

(22)
INDEX TO APPENDICES

APPENDIX i: Court of Appeals decision, denying, rehearing en banc: LEXIS 14197
APPENDIX ii: District Court Order denying COA and Title 28§2255 motion. LEXIS 73519
APPENDIX iii: Appellate Courts Order denying COA appeal

_____________

i

i

■ i

*

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
|X] has been designated for publication but is not yet reported; or,
Eel is unpublished. 2021 U.S, -App, LEXIS 14197
The opinion of the United States district court appears at Appendix
the petition and is

11

[ ] reported at
; or,
IX] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
2020 U.S. App. LEXIS 73519
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _____ to the petition and is
[ ] reported at
; or, ■
[ ] has been designated for publication but is not yet reported; or,
E 3 is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished. •

.(a)

to

:■

I

•V. «

*

.»
■

»

*

4

■

*

‘9

I

JURISDICTION
The Date on Which the United States Court of Appeals decided my case, was May
-■ -____ *

A timely Petition for rehearing was filed in this case. The Timely

petition for En Banc rehearing was denied on May 12th 2021, and a copy of the order
denying rehearing appears at Appendix

iii

.

The jurisdiction of this Court is invoked under: 28 U.S.C. §1254(1).

(b)
1

• il ♦

•«

(Case Citation's)
United' States v. A Certain Tract of Land; 70.F.904 at 943; pg 1
Gamble v. United States; 139 S..,Ct. I960; pg 3, 7, 13, 15
at 1962; pg IS
at 19651 pg.3, 11
at 1996; pg 12
Gaviers v. United States; 55 L.Ed 489, 220 U.S. 338; pg 4
at 342; pg 7, 8, 11, 15
Leathers; 354 F.3d at 960; pg 5
Chavez v. Webepl;' 497 F.3d 796; pg 5
United States v.. Turpin'; 920 F.2d 1377; pg 5
Newberry v. United States; 256 U.S|.i239 at 249; pg 6
District of Columbia v . Buckley; 75 App. D.C. 301, 128 F.2d 17l,' 21; pg 7
Bartkus; 359 U.Sl.1 at 123; pg 10, 19
Michener v. United States; 157. F.2d 6161; 618; pg 11
at 619; pg 12
United States V. Whatley; 719 F.3d 1206, 1224; pg 13
re Summers; 325 U.S. 561,1,' 65 SfJGt-. 1307, 89 L.Ed. 1795; pg 14
Nasa v. Nelson; 562 U.Sl.1 13411 178 L.Ed. 2d 667, 690; pg 14
at 691; pg 15
Hallman v. United States, 490 F.2d 1088; pg 15
United States v . Morgan; 98 LlJEd.248, 2521 346 0.5(4 502; pg 16'
US. v. International Minerals and Chimicals Corp. 402 U.S|J 55S, 563; pg 18 .
Ash; 413 U.S. 300, 309-310. 93 S.Ct. 2568, 378 L.Ed. 2d 619; pg 19
Blockburger; 284 U.S. 299, at 304; pg 11, 13, 15 "
Strickland Vl Washington; 466 U.S. 668, 694; pg 15, IS, 19 •

(c)

/

>

.# .« .
V
f

*

«

>

•OTHER. CITATION'S
"The Federalist Papers"

-Number 45; pg 6, 10
-Number 62, Section II; pg 1
-Number 62, Section III; pg 2 .
-Number 65 "The Powers of the Senate"; pg 2-3

(d)

•. *

.. »

Statutory Reference

'

Federal Statute(s)
-Title 18§2251; pg 5, 6, 10 , 12
-Title 18§2422(b)'; pg 4, 10
“

-Title 28§2241; pg 10
Title 28§2255; pg 5, 10, 15, 16
Title 28§994; pg 17

State Statute(s): Minnesota
-609.341; pg 8
-609.352.1(b); pg 9
-609.352.2a(2); pg 4, 5, 7-9
■‘■609.352.4; pg 4, 5, 7-9
-617.246; pg 8(,! 9
CONSTITUTIONAL PROVISIONS •
-Article I, Section 3, Clause 1; pg 1, 7
-Article I, Section 2-3; pg 2
-Article I, Section 7; pg 3
-Article I!; pg 12
Article III; pg 13, 14
Bill of Rights; 12, 21

.

...... ............

5th Amendment to-the United States Constitution; 4, 6, 9, 11, 12, 13, 15, 16, 18, 20
6th Amendment to the United States Constitution; 19, 20
14th Amendment to the United States Constitution; 5,6
17th Amendment to the United States Constitution; 1

(e)

■ ‘

*

4

>*

,

> *•*

STATEMENT OF THE CASE
The defendant was originally arrested in.May of 2017 in Beltrami County Minnesota.
The state prosecutor decided that the punishment that was available at the state
level was not satisfactory, he therefore choose.to contact the Federal Government
and initiate prosecution in the Federal Courts, for the same "offense conduct" that
was already present in the state indictments.
The State prosecution was the driving factor in the Federal Prosecution. The
evidence is all based on state level investigators., with zero federal involvement.
The State Prosecution was even so bold as to point out this reasoning to the court
when the State of Minnesota Sentenced the defendant.TThe District Court's Decision,
t2020 U.S. Dist. LEXIS 73519] addressed the "joint" prosecution,’ relying on [Gamble],
while ignoring the constitutional construction of the Federal Legislative Branch
of Government.
Without eyen addressing the constitutional construction of the Government, the
defendant was denied a Certificate of Appealability. He chose to appeal this decision.
This appeal was denied on May 12th 2021, and forms the.premis of the defendant's
current stance on Judicial Minimalism. The Court of Appeals and the District court
in the Eighth Circuit, have ignored their duty to uphold the entire constitution,
and make rulings that incorporate all of the sections of the .Constitution noted,
and have left the defendant with aiSOO-morith sentence as a direct result of a 5th
and 6th Amendment violation resulting from a- minimalist approach to constitutional
application and interpretation.
As a result, the defendant has petitioned to this Court to properly determine
Constitutional interpretation and application. •

(f)

.

i
■

i

.*«

• .

Ihis court should grant Certiorari for the following: three reasons:
(l).The construction of the Legislative Branch of the United States Government,
per Constitution, prohibits it from being a "separate sovereign" form any of the
States in the Union. "By- the victory of Gettysburg, the integrity of the Constitution
of the United States was preserved, and patriotism demands that the field of that
great battle should be appropriately marked and embellished; but without doing

violence to the constitution itself,: no court can usurp the legislative power,
which that insturment vests exclusively in congress." [United States v. A Certain
Tract of Land, 70 F.940 at 943 (6-19-1894)].."The Senate of the United.States
shall be composed of two Senators from each State,, chosen by the legislature there
of. [Article I, Section 3, Clause 1; United States Constitution]. "Among the various
modes which might have been devised for constituting this [Senate] Branch of Government,
that which has been proposed by the convention is probably the most congenial
with the Public Opinion. It is recemmonded by the double advantage of favoring
a selecti.-appointment, and of giving to the State Government such an agency in
the formation of the Federal Government -as must secure the authority of the former.: •
and may form a convenient link between the two systems'." [Federalist No. 62 "The
Senate" :Section II],
On April 8th, 1913

the United States completed Ratification of the 17th

Amendment to the U.S. Constitution. This amendment shiftedvthe Election of Senators
to the people of the State. This amendment did not change the function of the
Senate itself, and it did not change thp construction of the Legislative Branch
of the United States Government. .
The United States Legislative Branch’ is a Bi-cameral legislature composed
of two bodies. First, The House of Representatives; which exists for the" sole
purpose of representing i the people (populus) in the Federal Government. Second, *
is the Senatel) which exists to allow two appointed/elected officials to represent .

(1)

,

.

„

1

4

the State Legislatures at the Federal level.

Under Section III of Federalist

No. 62, the writer notes that-the Republic of the United States is-strong and.
sound as it incorporates proportional

representation of the People [House of .

Representatives] and equal representation of the State Governments [The Senate]
into a centrally-linked Government.
No state in the Union shall have a larger standing in the Federal Government.
This prevents more populous states from dominating the Central Government. Itv
matters not how many Congressional Districts a state has; in the Senate, the State
Government has two votes PERIODlTThis was to prevent the exact problems that plague
the Federal Government now. The United States is not now, nor has it ever been
a true Democracy, it is, and has been a Democratic Republic. The people see their
representation in the House of Representatives, and the State Governments see their
representation in the Senate. That both are elected by the people DOES NOT CHANGE
THE FUNCTION OF THE TWO. Per Article I, Sections 2 & 3 of the United States Consti­
tution, the two "bi-cameral" houses are assigned different enumerated powers based
entirely upon the history of this nation,-and the function of the State Governments
that existed prior to the ratification of the United States Constitution; Take
for instance taxiation, following a nation that, saw a revolution based in part
of improper taxes, it was only common sense to limit the power to create a tax
bill to the "people's house" [The House of Representatives]. The founders also
knew; "The delicacy and magnitude of a trust which so deeply concerns the political
reputation and existence of every man .engaged in the administration of public, affairs
speaks for themselves. The difficulty of placing it rightly in a government resting
entriely on the basis of periodical elections will as readily be perceived,, when
it is considered that the most conspicuous

characters in it will, from that circunstance,

be too 1 often the leaders or tools of the most cunning or the most numerous faction,
and this account can hardly be expected to posses the requisite neutrality towards
those whose conduct.may be the subject of scrutiny.." [Federalist No. 65, The Powers

(2)

•« .

>

’

of the Senate "Impeachment"]. This is why the power to impeach the President or
anyiother- official rests in the "people’s house"; while the power, to convict and
remove said official rests only in the "Republic of the States.” [The Senate].
The United States Government consists of a legislature that is designed to
prevent "MOB RULEM!" A summer of Antifa riots, and city occupation of rioters,
followed by a mob attack on the Central Government itself, should and better show
why our Government will never allow the mob to rule. This ties into number 2.
(2) If the United States Federal Government is composed of representatives, represent­
ing the State Legislatures, how can the Federal Government be considered a Separate
Sovereign fran the States? Every law passed on the Federal Level, must be passed
by a majority of both houses [House and Senate]. If that be the case, each state
is directly involved in the drafting of federal laws. [Article I, section 7; United
States Constitution.] Therefore, it is impossible for the Federal Government to attempt
to remove itself from, state Legislative Control.
The previous court rulings addressing this issue, namely [Gamble v. United
States; 139 S.Ct. I960], have all attempted to look to the construction of the
Executive Branch, and it's ability to enforce..laws, independent of the state
government’s [or sovereigns]. However, in doing so the court has overlooked the .
single most important factor that it, touched on in [Gamble], and that is that in
the United States Government, the Legislative branch, not the executive, drafts
and passes the laws. In .[Gamble atl965], the court determined that an "offense"
is defined by a law .and each law is defined by a sovereign. Then is stopped, the
court scratched the surface, but through it's stubborn adhearance to "Judicial
Minimalism" it did'not look to the construction of the "Sovereign" in question.
As noted above, the state and the Federal Sovereign, are inextricably related on
- the Federal..level, due to the Constitutional Construction of Congress.
This' court has issued rulings in the past that conformed to. the Constitutional,
construction .of the legislative branch, however, for reasons unknown, it did an

(3).

..: 4

... •» -

about-face, now: issuing opinions that*conflict with the construction of the Consitution
itself.. In [Gaviers, v. United States 55 L.Ed. 489, 220 U.S. 338] the court established a
two

not one3 two factor .test that conformed to the Constitution in relation to

the 5th Amendment to the United States Constitution. Not only does, one "offense”
require elements that the other "offense" does not contain, but it ALSO required
that the elements contained in one "offense" could not be:used .to. support the elements
that supported conviction in the other "offense." This second factor has been removed
from all Court.Opinions of late, despite that it has never been over-ruled.
This..courts early ruling on dual sovereignty, and double jeopardy did not
have to directly address the construction of the Legislative Branch of Government,
because the rulings did not run afoul thereof.
Per Article I, Section 3, Clause 1 of the United States Constitution, the
Federal Government is directly connected to.the .State Legislatures throught the
Senate. Therefore for the purpose of 5th Amendment Constitutional Protection, the
Federal Government and laws created- throught the federal legislature, are 'NOT TO
BE CONSIDERED A SEPARATE SOVEREIGN FROM THE STATES!! As this is factually supported

<

by'-:the constitution itself, the defendant asks this court to exercise it's judicial

^

function under Article III of the United States Constitution and realize that the
defendant's conviction‘in the, 8th Circuit Federal Court, runs afoul to: the protections
afforded from the 5th Amendment to the United States Constitution.
(-3) The-.Defendant in this case, was charged in Beltrami County Minnesota, with
Engaging in Electronic Communication Relating or Describing Sexual Conduct with
a4child [Minn Statute 609.352.2a(2)], Solicitation-Solict-Child in person or via
Computer or Internet-Sexual Conduct [Minn Statute 609.352.4], This was the conduct
charged in the Minnesota Indictment, and relates 'to MV-1392: MV-1392 is the same
as Minor #1

in the Federal Information, and the conduct charged in Minnesota under

the indictment above, is the same conduct that forms the conduct charged in the
.Federal Information .under Title 18§2422(b).

.(.4)

.

«•*

f. V

The defendant'was also charged in a separate indictment in'Minnesota, in Beltrami
County as well, with; Engaging in .Electronic Communication Relating or Describing
Sexual. Conduct with a Child. [Minn Statute 609.352.2a(2)]; Solicitation-SolicitChild in person or via Computer or Internet-Sexual Conduct .[Minn Statute 609.352.4].
This conduct was associated with MV-846 in Minnesotta: MV-846 is the same identified
as Minor # 2 in the Federal Information. In Federal Court,- -the conduct that formed
the indictment on the counts noted in this paragraph above, formed the basis for
the Federal Information charging him with violating Title 18§2251 using Minor #2
as a victim.
The defendant filed a timely 2255 motion/presenting the Double Jeopardy allegation
to the District Court. This motion was-denied (see 17-cr-0234;-.0:19-cv-00350-WMW).
In his 2255 motion, the defendant notes that the "collusion" between the state and
federal Government run afoul of the Constitutional Prohibition against double jeopardy.
The Government's reply and the cour.ts order in that instance are proof that the high.
courts refusal to properly examine the constitutional construction of our Federal
Government, have left the lower courts with the ability to make ard enforce unconstitutional
orders, that defy belief and the constitution itself. [Leathers, 354 F.3d At 960],
[Chavez v. Weber, 497 F.3d 796] and [United States v. Turpin, 920 F.2d 137-7] all
these cases.cited by the district court do not at all touch on how the laws in the
Federal Government are created. As noted in sections (1) and (2) in this brief, ‘
the Federal Legislative branch has it's system of checks and balances, as a result
of the two houses in congress in which the state legislatures can check the people
and the people can check the states._ Without that understanding of our Government,
it is impossible to determine what the double jeopardy protection includes, nor
why it was not needed in the 14th Amendment.
The 14th Amendment does not include two provisions that the 5th Amendment does,
one being the prohibition against self-incrimination,:and the other being "double
jeopardy • Under the 14th Amendment Section 1 notes "afT persons bom or naturalized

(5)

-

.• .
• •I 4

in the United*States, and subject to the jurisdiction thereof, are citizens of the
United States AND of the S-tafe wherein they reside." Under this section,the amendment
\.S

did not need to include the provisions against, self-incrimination because those
rights under the 5th Amendment are guaranteed to the citizens of the United States.
As under the-14th Amendment, people of the state are.clearly residents of both
"sovereigns," this protection was already afforded. However, legislative actions,
executive enforcement and judicial oversight in state government’s "j&i. originallyhad no Constitutional Control, the states were separate from the Federal Government,
they still are. The 14th Amendment was and is an amendment with the sole purpose
of extending those wonderful provisions under the Bill of Rights in the United States
Constitution, to the state Government’s because the drafters knew that the Constitution
prevented the new-federal Government from encraoching on states rights. More then
85 years lates, the states could see that the new Federal Government was not encroaching
on the individual states, and,through their representation in the Senate, the states
helped ratify the 14th Amendment, ensuring that the furute State Government actions
would now follow .the same bill of rights that the Federal Government had been.
Double Jeopardy did not need to be included directly, in this amendment, as
just like self incrimination, this was already included in rights afforded the "dual
sovereign citizens!' of the United States AND the States.

n

The very existance of the

Federal Government depends on that of the State Governments. The -.State Legislatures
are to choose Senators. Without a Senate there can be no Congress" [4 Elliot’s Debates,
p78. See also Federalist No.. 45][Newberry v. United States; 256 U.S. 232 at 249].
The prohibition against*double jeopardy prosecution and punishment did not need to
be added, as for -the purpose of law enforcement, the two "sovereigns" are not separate.
Properly Applied Test
Having now shown this court the proper'.construction of Congress and the State
Governments; the defendant will now turn to the proper test to determine if the two
charged and convicted offenses run afoul of the 5th Amendment. The. defendant will

• .

(6)

* .
• 1

-

■. ♦ T •

■'*

• I

utilize the exact case this court originally ruled on,'and .should FULLY review when
making the detennination required. The defendant applies the .test established in
[Gavieres v. United States; 220 U.S. 333, 342].
[l] a conviction or acquittal upon one indictment is
no bar to a subsequent conviction and sentence upon
another, unless the evidence required to support a
conviction upon one of them would have been sufficient
to warrant conviction upon the other.
[2] .j£he test; is. not whether the defendant has already
been tried for the same act, but whether he has been
put in jeopardy for the same offense.
[3] A Single act may be an offense against two statutes;
and if each statute requires proof of an additional
fact which the other does not an acquittal or conviction
under either statute statute does not exempt the defendant
from prosecution and punishment under the other.
(section 342 from Gavieres, sentences numbered for reference)
In the recent [Garble v. United States 139 S'.Ct. 1960] case, the supreme court
stated that for the purpose of Double Jeopardy violations, an ''offense" is determined
based off the statute that a specific sovereign drafts [id above case]. However
it bases this application of the constitution by cherry picking sentence "[3]" from
Gavieres, while ignoring the legislative construction of congress. This is fundamentally
flawed, and removes the proper-"severability" noted in Gavieres. This severability
issue-is also supported by [District of Columbia v. Buckley; 75 App. D.C. J01, 128
F.2d 17, 21.
Gavieres Test Count 1:
1

4

Fed Info:(Minor #1) :The defendant did use a facility and means of interstate and
foreign commerce, that is, the internet
• Minn 5tat(MV-1392) : who. uses the internet •
Fed Info:

knowingly persuade, induce'and entice Minor #l(MV-1392), a known
13 year old girl to engage in sexual activity for which a person

(7)

T7T

*•

-< »

•* ♦

•* .

can be charged witha criminal offense,
Minn Stat:

2a

"commit any of the following acts

is guilty of a felony"

1/(2) "engaging in communication with a child or someone the
r'

person reasonably believes is a child, relating to or describing
sexual conduct"*5'
Sexual Gaaduct means sexual contact of the individual's primary genital area, sexual

penetration as defined in'section 60$.341, or sexual performance2 as defined in section
617.246:
Footnote 2:"Sexual performance" means any play, dance.ior other exhibition presented
before an audience for the purposes.nf visual or mechanical reproduction that uses
a minor to depict actual or simulated sexual conduct.. .-(See Exhibit 1).
For.the purpose of count one in.the Federal Information, everything that consti­
tutes elements of the crime in the state offense, including, production of Child
Pornography, .overlaps from the State Level prosecution. Furthermore, they are required
elements of both to sustain convciton upon either. "A conviction or acquittal upon
one indictment is no bar to subsequent conviction and sentence upon another,/unless
• the evidence required to support:a conviction upon one of them would have been sufficient'
to warrant conviction upon the other" [Gavieres at 342]. Employing the "severability
test" noted prior, would rarove

all of the required elements under Title 18§2251,

leaving nothing to sustain the current conviction. Count one in the Federal Informationfails the true double jeopardy test-, reversal and dismissal is required.
Gavieres Test Count 2
* Fed Info. (Minor #2)

:The defendant did 'knowingly employ, use, persuade, induce,
and entice Minor -#2(MVT-846)

a known 12 year old girl to engage

in sexually explicit conduct for the purpose of producing a ..
a visual depiction of such conduct.
Minn Stat(MV-846)

:(2) engaging in communication with a child or someone the person
reasonably believes is a child, relating to or. describing sexual

•

■ •

»• V .

»

•..

•V*

conduct**!see -section in Gavieres Test Count 1, noting'the ■
definition of.sexual conduct per Minn Stat 609.352.1(b), and„ .
sexual performance per Minn Stat 617U246]**

fed Info:

knowing and having reason to know that such visual depiction
would be transported and transmitted using a means and facility
of j and in affecting interstate and foreign commerce, and which
visual depiction was transmitted using a means and facility
of, and in and affecting interstate and foreign commerce by
any means including by computer.

Minn Stat:

"2a" a person 18 years of age or older who- uses the Internet,
a computer, computer program, computer network, computer system,
an electronic communication system, or a telecommunications,
wire, or radio communication system!,1 or other electronic device
capable of electronic data storage.
"2b" [jurisdiction] a person may be convicted of an offense
under subdivision 2a if the transmission that constitutes the
offense originares within the state or is received within the
state.

In this Gavieres ..review, the state requires that the defendant communicate through
electronic means for the purpose of visual reproduction of a sexual performance.
The communication can originate in or terminate in the state, clearly allowing the
state to punish a defendant for using a Government defined means of interstate commerce.
As in Count 1, when the conduct .that overlaps Count 2 of the Federal Information
is -severed fromithe conduct that sustains the conviction in the State of Minnesota
there is NO conduct left to charge the defendant in Federal Court.
Not only is there clealy no conduct left in either count

in the Federal Information,

but the true nature of the federal charge is clearly an .atterpt to violate the defendant's
constitutional rights against .dual punishment for the same offense, through expansion
(9)' '

• * .
>•

•v;

of imporper constitutional application. "Referral and cooperation between Federal
and State officials not only do not offend the Constitution 'they •are commonplace
and welcome"[Bartkus, 359 U.S. at 123]. The problem is this court has seemed to
forget what

referral means . It means to transfer to another. Cooperation means

to work with one another. Utilizing the basic meaning of these english words, the
state is either referring a criminal defendant to another venue for thier persecution
or they are working in tandem. Either way, double jeopardy would not be offended
if done properly. "We knew fairly early on that the state statutes addressing this
behavior could not compare to the sentences that the prosecution' could get'. Ate the
federal level. And we knew faily early on that, we wanted to enlist the assistance
of the United States Attorney's Office and prosecute.the bulk of this case -federally
in light of the exposure of the sentences, including exposure to life imprisonment
with'the defendant" [Transcripts'.Minn State hearing, 2-8-18, Pg. 4 LN.9-18](See
Title 28§2255 motion exhibit?4)
The state Government, through -.cooperation between the two sovereigns, had the '
ability, per constitution, to refer the defendant's criminal case to the United
States Attorney's Office for prosecution, as long as the state would have dismissed
the indictment before it for the same conduct, the State choose not to. The State
could have worked with the federal Government to prosecute the defendant for crimes
other then what the state had, the state choose not to. "The very existence of the
Federal Government depends on that of theSState governments." [Federalist No. 45].
On Feburary 8th 1978, the United States Government (through the consensus of two
houses of congress),enacted Title 18§2251. The Senate at the time represented the
State of Minnesota, and was responsible for the laws passing. On June 25th, 1948
the United States Government (through the consensus of two houses of Congress) enacted
Title 18§2422. Again, the state of Minnesota was represented in the Federal Government:
through the Senate, and was responsible for the laws passing.
When .the state of Minnesota choose to.pick a state statute to charge the defendant*

(10)

.• ,
v

*» .

-i *

•.. •
«'

.

, *?•

in state court, then to pick a federal statute that covers the exact same offense
conduct and charge:, the defendant for the same offense conduct under a Federal Statute
it violated the 5th Amendment to the United States Constitution, and the State of
Minnesota did this not once, but twice: Count 1 and 2 in the Defendant's Federal
Information. This argument is presented to the Federal Courts, because it is those
courts that have been utilized by the state of Minnesota as a means to violate the
defendant's constitutional rights, and it is those.in which the second successive
prosecution began.
"The test is not whether the defendant has already been tried for the same
act, but whether he has been put in jeopardy for the same offense." [Gaviers at
342, line [2] from .reference]. The [Blockburger] test, requires this court to determine
if each of the defendant's offenses "requires proof of..different elements]" [Blockburger
284 U.S. 299, at 304]. In the defendant's case, as shown above in the two "gavieres
tests," the elements are identical. Therefore, the defendant was already "in jeopardy"
for the same offense, when the Federal Government returned it's Information. The
. defendant's stance is not :.new either. In 1948, the defendant's own circuit ruled that,
” to sustain the plea of double jeopardy, it must appear that appellant uupon the
first charge could have been convicted of the offense in the second." [Michener
v. United States; 157 f.2d 616, 618].
In the most recent case of [Gamble v. United States; 204 L.Ed 2d. 322]

Justice

Tnomas stated, "Our judicial duty to interpret the law requires adherence to the
original meaning-of the text. For that reason, we should.not invoke stare decisis
to uphpld precedents that are demonstrably erroneous. Because petitioner and the
dissenting opinions have not shown that the Court's "dual-sovereignty" doctrine
. is incorrect, much less demonstrably erroneous*' [justice Thomas concurred in the
majority's opinion]. The justice was right. However, at some point in the past the
court began looking to it's own previous interpretation of the Constitution rather
then, to the actual Text of that document

when attempting to resolve cases and contra-

versies. In doing so it has completly Ignored Article I of the U.S. Constitution.
(11)

« .

The defendant wonders if, in light of Ariticle I and the constitutional construction
•presented in this Brief, if Justice Thomas' would reconsider those words, and that

' •

decision. “The fifth Amendment to the Constitution protects all against double punishment
for the same offense. Its enforcement and its application demand a test which is
practical, not a theoretical one. It is the evidence, and not the theory of the pleader,
to which we must look to determine this issue."[Michener at 619]. "A free society
does not allow its government to try the same individual for the same crime until
it's happy with the result.''[Gamble; dissent by Gorsuch, *at 1996].
The United States Constitutions Bill of Rights, is not intended to offer protection
to the Government, it is to restrict the Government, "and it is needless to add that
one accused of crime, regardless of kind or magnitude of the offense,, is entitled
. t0 the protection of this section [5th Amendment] of the Constitution"[Michener;
at 619]. The defendant is accused and convicted, and has admitted to, using social
media, accounts ficticiously created, and his position of trust to solicit the production of
child pamcgraffy.

This does not negate his constitutional protection. If anything,

just the accusation, prior to any admission of guilt should have guaranteed his pro­
tection, as his lawyer, and the courts should have been well aware of the stigma
that a conviction based off of the conduct that the defedant was accused of, would
carry.
The courts stubborn adhearance to this, mis-application of the constitution
not only allows successive prosecution in multiple different districts, but’as worded,
allows multiple applications of the same statute, utilizing different statutory
*

. elements, in the same district. Take fob instance, the statute the defendant was
charged under in Federal Court (Title 18§2251).
(1) Knowingly persuade MV-1 to engage in sexually explicit conduct for the purpose
of producing a visual depiction of such conduct, knowing and having reason to know
that such visual depiction would be transported using any means-of interstate commerce-.
(2) Knowingly used MV-l to engage in Sexually explicit conduct'for the purpose of

*

.(12)

'

•« .

producing a visual depiction of such conduct, using materials-that had been mailed,
shipped and transported in and affecting interstate commerce by any means. •
(3) Used a facility or means of interstate commerce to induce MV-1 to engage in sexually
explicit conduct for the purpose of producing a visual depiction of such conduct.
These three crimes can all stem from one single act..the same act the defendant
stands convicted of. However, because the "offense" is defined by a statute [Gamble],
despite that it is the exact same conduct, the three contain elements that the others
do not[Blockburger]. It is time that this court sees the error in what this ruling
has done and how far it has come. Derik Shovin was. convicted of three crimes that
are all directly connected.to one another. That trial saw the old "Russian Doll"
conviction, Manslaughter forms mostbof .the elements required to convict of 3rd Degree
Murder, which in turn forms most of the elements required to concivt of 2nd Degree
murder. This very year the nation saw, in live realtime TV, a trial play out that
violates the very premis of the 5th Amendment to the United States Constitution,
and it was allowed because of this courts studdom adhearance to an inaccurate appli­
cation on the United States Constitution,- that was decided based on review of a
previous ruling, not on a review of the Constitution itself.
JUDICIAL MINIMALISM
In 1999 the courts began following an approach called "Judicial minimalism."
This ideal sees no constitutional founding, and the defendant believes that it in
effect limits Article III Judicial function. It is based off of a book by Cass R.
Sunstein, called One Case at a Time; Judicial Minimalism on the Supreme Court 36" This wonderful book hassled to a practice called "Decisional Minimalism",

"that

is, saying no more then necessary to justify an outcome, and leaving as much as possible
undecided"...[United States v. Whatley; 719 F.3d 1206, 1224 (11th App. 2013)]. The
court began this as it felt that (l) it was likely to reduce the burdens of judicial
decisions, :.and (2) it was likely to make judicial errors less frequent and (above
all) less damaging [id at 1224]'.

This good intention defies logic as-im the courts

(13)

■i

•

V.

of the United States generally a "case arises within ' meaning of Constitution, when
any question respecting Constitution, treaties or laws of United#States has assumed
such form that judicial power is capable of acting on it; declaration of rights as.
they stand must be sought, not on rights which may arise in future, and there must
be actual controversy over issue, not desire for abstract declaration of law; form
of proceeding is not significant, but it is nature and effect which is controlling."
[re Summers, 325 U.S.561, 65 S.Ct. 1307, 89 L.Ed. 1795], Under Article III, Section
2,“Clause 1, better known as the "case or controversy clause," the Court is granted
its jurisdiction on specific subject matter. Nowhere in the Constitution can'the
Court draw the power to "minimalize" it's jurisdiction. The defendant feels that
this court, somewhere in history, has made a determination, that"case or controversy"
meant the court could either make a determination as to the outcome of a specific
case, OR determine the controversy presented in the preceedings associated with that
specific case. The defendant feels that this is in error and not consistent with
the Constitution, and is has led to "Judicial incoherence" [Justice Scalia and Thomas,
in concurring opinion, Nasa V. Nelson; 562 U.S. 134, 178 L.Ed. 2d 667, 690] on the
courts as a whole.
As the defendant stated- in his request to the Eighth Circuit, this "minimalistic"
approach has not made judicial errors less frequest, and less damaging....it has
made judicial errors impossible to identify, and more constitutionally damaging.
For reference, the defendant would note that should this court take up this case
and rule as the constitutional construction requires, the defendant directs this
court to review all of the 8th Circuit Appellate Decisions issued in response to
this

controversy" and ask, how is it possible for a superior court to review that

decision for error, and how that decision in any way would instruct a lower court.
Therefore, this "minimalistic" approach does not reduce the judicial burden, it
substantially increases' the burden, as lower courts are- operating with no instruction
from the superior courts, therefore, making constant decisions that should have clearly

(14)

•- .*

established constitutional precident;. and then requiring superior courts to conduct
a iar more mdepth review then should be .required, as the superior courts have no
idea what the lower courts considered before issuing a "one-line" decision. This
is the very essance of "judicial incoherence." The defendant does agree with the court
when it states, "it is of course acceptable to reserve difficult constitutional
quiestions, so long as answering those questions is unnecessary to coherent resolution
of the issue presented [in the specific case]" [Nelson, id at 691]!.' The problems
is and has been in this case, that the courts refusal to address the constitutional
issues at all, is due to a perceived ability to deny the specified request, based
entierly on some other reason. This and other courts have created a judicial system
in which "one loose thread in the sweater can destroy the.entire garmet, even if
the thread does not unravel the remaining.threads in the shirt." This is not how
our courts are to work, but it has become common place

as a result of what the

defendant will cite as "incoherent judicial obscurity," and "constitutional ■
redaction." The defendant notes constitutional redaction, as when this court reviews
the decision in [Gamble],[Gaveiers], and [Blockburger], it is clear that this court,
resuses to look to the document itself, or looks to one portion,vwhile ignoring
the whole document and how it should apply to the case before it.
This court understands this, yet it seems to only focus on this when it is
against the accused. In the current case before this court; not only must the defendant
prove that his legal argument is sound, thus showing that his 5th Amendment Rights were in fact violated, but as it is being presented to this court as a Title 28§2255
motion, he must prove that his defense counsel^ actions were below the standard
established in [Strickland]

or the court will refuse to look to the merits of his

fifth amendment challenge. ^Appellategcourilwill'notlreyiew onfappeal from denial
of motion to vacate sentence under Title 28§2255, issues not timely raised on appeal
from conviction." [Hallman v. United States, 490 F.2d 1088 (8th Cir 1973)]. This
.stance- is binding, on 11 Circuits. Yet in the 73 years since the enacement of Title

- (15)

-.1 *

... •. .

28§2255, and the 27 years since the time limit was placed on a filing* not.one single
time has this court or any other acknowledged how the statute 5 • as a whole violates
the Equal;Protection Principle of the Fifth Amendment to the United States Constitution.
In its current form, a criminal defendant has one year to file his timely petition
under Title 28§2255, based on subsection (f) as long as he is an incarcerated individual.
Think-about that for one second, the average inmate who lacks highschool education,
has less then..12 months from the issuance of his judgement, to file his petition.
Does this court even consider, that once sentenced, an;incarcerated individual,
spends 2-to 5 months in transit, en route to his designated prison. If he fails
to meet that time limit, absent a justified showing for delay, he is done, no more
.arguing that issue, unless 'there is a change in consittutional law. A defendant
with a 30 year sentence will serve out his three decades in prison, then be released.
The day he is released, he can file a "writ of coram nobis" to the court because
he could not benifit from a Title 28§2255 or.a;§2241 motion.

’A void conviction

does not gain validity with age" [United States v. Morgan; 98 L.Ed 248, 252, 346
U'.SL1.502].

This is important with the current case, as a conviction like the ...

defendant's in federal court will result in sex offender registration? long after
the term of imprisonment has expired. However, it makes the point noted above, a person
incarcerated has no ability to apply for a "writ of corum nobis" and is instead
bound by the terms of Title 28§2255 or §2241, and the associated time limits, and
general filing' restrictions.
The current application of Title 28§2255 and -the Writ of Corum Nobis, violate .
the equal protection principle of ,the 5th amendment, by unconstitutionally limiting
access to the courts only while an individual is incarcerated, while at the same
time allowing, untimely, successive 'petitions to be filed by those who.are not deemed
by the court to be "in custody."[Morgan, id above footnote 1}. The Defendant does not
cite these things now for this, court to determine, although he feels it is time that
it should, these things are cited for reference mainly .-.to .show this court how .its-

" (16)

.• .
*4 4
V .

,

y •

,*•

application of "decision", and "judicial minimalism" have -let the court-, the executive
branch and the legislative branch, slowly erode the constitutional protection afforded
"We The People",
INCONSISTENT DECISIONS
The defendant next notes that the decision, which currently the Courts are
utilizing to Govern their own interpretation of Double Jeopardy, is not only
inconsistent with the Constitution as a whole, it is at odds with the entire premesis
of the United States Sentecing Guidelines.

If an offense is the "statute" as deter­

mined by the sovereign, how does a court apply the United Sentencing Guidelines?
The current understanding of "offense" would limit the united States Sentencing
Guideline application to a categorical approach, or more specifically, one in which
only the actual statutory elements of the offense can form the base of application
to any of the United States Sentencing Guidelines themselves.
Title 28§994 under subsection (c) establishes parameters in which the Sentencing
Commission is to establish the guidelines. All of these parameters look to the actual
conduct, not some basic statutory language. Subsection (c) is not alone, subsections;
(d), (e),(h),(i),(1),and (n) just to name a few. To prove this the defendant will
apply the "categorical" Sentencing Guideline, to his own offense of conviction under
count 1 of his federal information, (Coercion and Enticement) :
Base level 2G1.3(a)(3)...base level 2S; oddly, not a single other guideline would
see its appllcaiton under the Defendant's Information (0:17-cr-00234-WMW, document
# 20), as none of the "conduct” covered in the Sentencing Guidelines, is. present
in Count 1 of the defendant's informal ton. ...

t

This courts inconsistent decisions seem to defy logic in most instances, and most
xf not all relate to the-"categorical approach" method being used to'determine
current offense conduct. Applying the'categorical approach in order to determine
if a-statute itself is of a specified type is logical. Applying, this approach to
determine if a specific offense or violation of said statute is of a specific type

(IV)

... '< .

•»..

•defies logic. "As originally understood.

•- *

an-offence is defined by a daw , and each

law.is defined.by a sovereign. Thus where there are two sovereigns, there are two
laws and two offeases'"[Gamble a.t 1962], This is the supreme court taking a
categorical approach to the word offense in the 5th Amendment to the United States
Constitution, while wholy ignoring the Seven full Articles,, the. multiple Sections
contained in them, and the multiple Clauses contained in the Sections, and how that
"approach" is inconsistent with the rest of the Constitution*
STRICKLAND "STANDARD"
(l) Per advice of counsel, the defendant had NO pretrial phase in the current
Federal Proceeding at all. Mr Wold’s decision to direct the defendant to waive the
filing of an indictment on the same day in which he plead guilty to a two count
information, was part of the plea signing that the Defendant was told, was in his
best interest (Document #26, pg 6 of 12, DKT# 0:17-cr-00234-WMW). When could the
defendant, one who lacks the 8 plus years required for knowledge in the law, have
been able to present any of the issues noted in this brief? "The proper measure of
attorney performance remains simply reasonableness under prevailing professional
norms [Stickland v. Washington; 104 S.Cf. 2052, 80 L.Ed 2d. 674, 466 U,S. 668, at
688].
(2) Per the above standard in "Stickland" the courts have allowed Attorney's
to set and abide by their own code of conduct with no oversight. The induction of
.incoherent judicial obscurity" and "constitutional redaction" have had an adverse
affect on that "standard" as now attorneys who spend years studying the
constitution in law school, must now learn how to apply multiple different "interp­
retations" of the Constitution, now matter how contradictory they are. "The general
rule that ignorance of the law or a mistake of the law is not a defense to criminal
prosecution is deeply rooted in the American Legal System." [United States v.
International Minerals and Chemical corp. 402 U.S.558, 563]. Not only should this
be the truth for criminal defendants

but it should be the standard for attorneys

•’

• **

.■ .i

:*.•* « •
•V-

•. 4

**

•'« •

who currently have the ability to create their, own standards, and comply with'only,
-those, as long as they are the professional norms. That Mr. Wold is ignorant to the
Constitution as a whole, and the protection it affords his client is no excuse 5 to
allow this to be considered acceptable is to create a two-tiered justice system, in
which an attorney’s ignorance to the constitution is accetable and allowed, while
an accused s ignorance to the laws drafted under the enumerated powerd of the
constitution is not, and is punishable by up to and including death. "in any case
presenting an ineffectiveness claim, the performance inquiry must be whether counsel's
assistance was reasonable considering ALL the circumstances"[Strickland.:at 688].
Again, the minimalistic approach misses what that says. Is the true construction
of the entire constitution concluded in "all the circumstances?" It should be.
(3) As noted in the original 2255 and again repeated in the Appellate Brief,
in 1973 this court ruled in [Ash; 413 U.S. 300, 309-310, 93 S.Ct. 2568, 378 LED 2d
619j"that counsels

assistance' would be less meaningful if it wererlimited to the

formal trial itself" The courts have .noted since that decision, that with the ever
evolving criminal justice system, a defendant has a right to counsel during "critical
stages of the proceedings". The time for Mr. Wold to step up to the plate, was at
the federal detention hearing and ask how his client was being charged twice, ..He
did not. He was then presented with the ability to file an appeal, based on new
information [When the state prosecutor said in open court, that the decision to
double charge was made for the sole purpose of increased punishment, the vindictive
nature of the federal prosecution was revealed,, as was the "sham that it was being
,

furthered under"(Bartkus v. Illinois 359 U.S. 121, 123)], still Mr Wold did noting.
(4) With no avenue to actually correct any deficient conduct by Mr. Wold, open
to the defendant; which would offer correction of the

Constitution Violations he

has suffered, and the liberty he has lost, this court is the final stop in requesting
a remedy. .
(5) The - continued constitutional

.

.

mis-intrepretation by this court has allowed
-(19)

the "field” of criminal defense attorney's to degrade into a field, in which no
single attorney attempts.to look .to, the constitution they are charged-to uphold.,
and instead relys blindly upon any and all judicial rulings to be guiding, despite
the constant minimalistic approach to the issuance of those rulings, and the lack
of guidance assocaited with those rulings. Mr. Wold.could not meet the Strickland
standard due to the lack of proper constitutional instructing from this court in
the areas in which the brief alleges. As such, there is no way Mr. Wold's assistance
could be interpreted as constitutionally effective, in relation to protecting the
defendant's 5th Amendment Right against Double Jeopardy. The defendant has established
his evidence required; to show the 6th Amendment Violation required, to allow full
review on the merits.

.

'

CONCLUSION
The defendant, in this petition, alleges that the current Supreme Court Rulings
m relation to "Dual Sovereignty" violate the constitution of the United States,
as a direct result of this court employing a "minimalistic" review of only the Bill
of Rights, while putting blinders on and "redacting" the remaining 7 Articles of
the United States Constitution.. As a result of this.continued "minimalist" approach,
the Executive Branch of the Federal Government, has the ability to intentionally
prosecute citizens [like the defendant] in violation of the prohibition against
"Couple Jeopardy" punishment and conviction established in the 5th Amendment to the
United States Constitution. .
This court, -.thm^i

incoherent judicial obscurity" and "constitutional redaction,"

has refused to acknowledge that the construction of the Federal Legislative.Branch
of Government prohibits it from being a "separate sovereign" from the-States, which
would in ..turn destroy it's current stance on "dual sovereignty" as it relates'to
the 5th Amendment to the United States Constitution.
The Defendant begs this court to grant Writ of Certiorari and correct the'
issues noted m this petition. The defendant respectfully request this court acknowledge
(20)

that a response from-the Attorney for the Executive Branch of Government, citing
no response" to this petition is irrelevant to the issues presented herein, and
should not be at all considered as reasons for denial,.as per proper constitutional
application, the Executive Branch of Government should not be asked to determine
the Constitutional Construction of the Legislative Branch of Government, and there­
fore the executive's own power. As the Bill of Rights is to prevent Government
Over-reach, the defendant'feels it may be in the interest of Justice to have this
court appoint an Amicus Curiae to "independently" defend any position offered by
the Executive Branch of the United States Government in this proceeding.
The Defendant, Brandon Mark Bjerknes respectfully request this court grant Writ
of Certiorari, and should the court issue a ruling in his favor, he respect that
this court bar any successive prosecution in Federal Court, as any further
Federal Prosecution would be clearly vindictive.
The issues presented in This Writ, are foundational; meaning they have to do
directly with the application of the Amendments to the Constitution in the Bill
of Rights and beyond, and how those rights are interpreted in relation to Article
I of the United States Constitution. The determination of controversies noted in
this brief establish limits of Executive Authority under Article II of the United
States Constitution, and the proper reach of Federal Law under United States Code
Service. Therefore, this court is required to exercise it's Article III Constitutional
function.and issue a ruling that will properly instruct all lower courts in a binding
manner.

*

(21)

.

;

4

:>
*

4

i

CONCLUSION

The petition for a writ of certiorari should be granted,

Eespect:
\
\

T

i

Date:

t

imitted,

z/
♦

I

